OIG Audit Report 01-23
Assets Forfeiture Fund and Seized Asset Deposit Fund
Annual Financial Statement Fiscal Year 2000
Report No. 01-23
September 5, 2001
Office of the Inspector General
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF) is a reporting entity within the Department of Justice (DOJ).  The AFF/SADF reports the amount of monies seized, along with the amounts realized from forfeitures, by agencies participating in the DOJ Asset Forfeiture Program (AFP).  The AFF/SADF also reports the operating expenses of the AFP and the status of property seized and forfeited.  In FY 2000, the AFF/SADF reported $731.8 million in forfeited property and $545.2 million in seized property.
The SADF and AFF were created to serve as repositories for seized funds and the sale
proceeds from forfeited property. The proceeds deposited in the AFF are used to
cover the operating costs of the AFP. These include payments to state, local,
and foreign governments; joint law enforcement operations; contract services in
support of the program; and satisfaction of innocent third party claims.
Operational expenses do not include the salaries and administrative expenses of
AFP participants incurred while conducting investigations leading to seizure and
forfeiture, and these are not reported in the AFF/SADF financial statements.
This audit report contains the Annual Financial Statement of the AFF/SADF
for the fiscal year ended September 30, 2000. Under the direction of the Office
of the Inspector General, the audit was performed by PricewaterhouseCoopers LLP
(PwC) and resulted in an unqualified opinion. An unqualified opinion means that
the financial statements present fairly, in all material respects, the financial
position and results of operations of the entity. The AFF/SADF also received an
unqualified opinion on its financial statements for FY 1999 (OIG Report No.
00-24). Comparative financial statements were not required this year and are
therefore not presented.
The AFF/SADF continued to improve in its ability to meet federal
financial reporting requirements. The improvements in the quality of the
financial records allowed the auditors to continue issuing an unqualified
opinion. However, the auditors identified a reportable condition on recording
and accounting procedures for seized and forfeited property that still requires
management's attention. No instances of noncompliance with laws and regulations
were reported for FY 2000.